UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Division of Enforcement
Bureau of Consumer Protection

June 26, 2012

Brett Ian Hanis, Esq.
Pisani & Roll LLP
1629 K StreetNW, Suite 300
Washington, DC 20006
Dear Mr. Hanis:
This is in reply to your letter requesting a Staff Advisory Opinion on behalf of your
client, Naturally Advanced Technologies US Inc. ("NAT"). NAT seeks approval for use of the
generic term "flax" for textile products manufactured from CRAiLAR® flax fibers and yarns.
Your letter states that the CRAiLAR® process uses a decidedly different process to remove flax
fibers from the flax plant than the process used to produce linen, resulting in a product with
distinct and different characteristics than traditional linen. Specifically, rather than extracting
flax fibers from the bast primarily through the physical methods described in your letter (j.e.,
through breaking, scutching, and heckling following a retting process), you state the
CRAiLAR® process involves the use of an enzymatic treatment to obtain a much finer, shorter
fiber with performance characteristics more akin to cotton than linen. Because products made
with CRAiLAR® fibers differ significantly from linen, you assert that describing products made
from CRAiLAR® fibers as linen rather than flax would mislead and deceive consumers.
In particular, you state that products made from CRAiLAR® fibers differ from linen
fabric, which is "smooth yet contains slubs (due to the length and lack of uniformity of the
fibers), wrinkles easily, requires significaut ironing, and typically must be air-dried after washing
or dry-cleaned." You also state that textile products manufactured from CRAiLAR® fibers are
soft and wear and wash like cotton, i.e., they do not need significant ironing and can be washed
and dried with other laundry.
In addition, you argue that, while the CRAiLAR® process produces flax fibers with
attributes that differ significantly from those of linen, the chemical composition of the
CRAiLAR flax fibers remains readily identifiable as flax. You explain that the CRAiLAR®
process does not chemically change the flax but instead involves the further separation of the
individual fibers to a degree not achievable through traditional linen manufacturing methods.
Because the CRAiLAR® process does not result in chemically "regenerated fibers," you contend

the fibers are not "manufactured fibers" addressed in Section 303.7 of the Rules and Regnlations
Under the Textile Fiber Products Identification Act ("Rules"), 16 C.F.R. § 303.7, and that none
of the fiber names established in this section (or the fiber names in ISO 2076: 1999(E) which
Section 303.7 incorporates) describe CRAiLAR® fibers accurately.
Finally, you note that describing CRAiLAR® fibers as flax rather than linen wonld be
consistent with international standards and practice. You explain that ISO 6938: 1984,
"Textiles-Natural fibers-Generic names and Definitions," defines the term "natural fibers" as
"fibers which occur in nature; they can be categorized according to their origin into animal,
vegetable and mineral fibers." You add that, according to § 3.2.2.6 of this ISO standard, the
fiber name "flax" is recognized as a standard name for certain bast fibers - specifically, "[f]iber
from the stems of flax Linum usitatissimum.,,1
Section 303.l6(a)(I) of the Rules, 16 C.F.R. § 303 .16(a)(I), requires that textile fiber
products have labels disclosing the generic names and percentages by weight ofthe constituent
fibers present in the product. Section 303.7 of the Rules, 16 C.F.R. § 303.7, sets forth the
official list of generic names for manufactured fibers, such as polyester, nylon, and rayon. The
Rnles do not provide a comprehensive list of natural fiber names, although 16 C.F.R. § 303.6(a)
identifies cotton, silk, and linen as acceptable fiber names.
Based on the information abont the CRAiLAR® process and the attributes of the fibers
you provide in your letter, we conclude that describing these fibers as flax on labels attached to
textile fiber products made from the fibers would comply with the Rnles. We also conclude that
describing these fibers as linen rather than flax conld mislead or deceive consumers. We base
these conC!usions on your assertions that the CRAiLAR® process involves a manner of
obtaining flax fibers that does not chemically alter them, that the attributes ofthe fibers differ
from those of linen, and that international standards and practice as well as the U.S. government
recognize the use of the term "flax" to describe flax fibers that have not been chemically
changed.
In accordance with Section 1.3(c) of the Commission's Rules of Practice and Procedure,
16 C.F.R. § 1.3(c), this is a staff opinion only and has not been reviewed or approved by the
Commission or by any individual Commissioner, and is given without prejudice to the right of
the Commission later to rescind the advice and, where appropriate, to commence an enforcement
action. In accordance with Section 1.4 of the Commission's Rules of Practice and Procedure, 16

1 You also note that the U.S. government uses "flax fiber" as the generic name for flax
fibers. E.g., Chapter 62 and Section 53 of the 2010 Harmonized Tariff Schedule of the United
States, www.usitc.gov/publications/docs/tata/hts/bychapter/l 000c62.pdf and
www.usitc.gov/publications/docs/tata/bts/bychapterIl000C53.pdf. In addition, the United States
Department of Agriculture, Agricultural Research Service ("USDA-ARS") established a flax
fiber research facility named the "USDA Flax Fiber Pilot Plant" and in 2005 published an article
in its monthly magazine, Agricultural Research, that was called, "Flax Fiber Offers Cotton Cool
Comfort." A copy of the USDA-ARS's 2005 Agricultural Research article can be found here:
www.ars.usda.gov/is/ARIarchive/nov05/fiber1105.htm.

-2-

C.F.R. § 1.4, your request for advice, along with this response, will be placed on the public
record.

Ja esA.Kohm
Associate Director

-3-

PISANI & ROLL LLP
Robert J. Pisani*
Michael E. Roll **
Brett Harris***
*Admitted in DC
**Admitted in CA
***Admitted in DC & NY

Attorneys at Law

1629 K Street NW, Suite 300
Washington, DC 20006
202.466.0960 (t)
877.674.5789 (f)
www.worldtradelawyers.com

1875 Century Park East, Suite 600
Los Angeles, CA 90067
310.826.4410 (t)
877.674.5789 (f)

Brett Ian Harris
Direct Dial: (845) 255-1850
bharris@worldtradelawyers.com

May 10, 2012
BY E-MAIL AND FEDERAL EXPRESS
Federal Trade Commission
600 Pennsylvania Avenue, NW
Washington, DC 20580
Attention:
Re:

Secretary of the Commission
Use of the Generic Term “Flax” For
Textile Products Manufactured From
CRAiLAR® Flax Fibers and Yarns

To Whom It May Concern:
On behalf of our client, Naturally Advanced Technologies US Inc. (“NAT”),
696 McVey Avenue, Suite 202 Lake Oswego, OR 97034, we hereby request a Staff
Advisory Opinion pursuant to 16 CFR Part 1 concerning the use of the generic
term “flax” for textile products manufactured from CRAiLAR® flax fibers and
yarns. We believe that this matter involves a substantial question of law and
there is no clear Commission or court precedent to guide decision of this issue,
which is of significant public interest. Moreover, this is not a hypothetical
question, as such products will soon be entering the U.S. marketplace (see, for
example, http://tinyurl.com/dymmezc). Therefore, a Staff Advisory Opinion in
this matter is warranted under the regulations.
We note that in an e-mail dated November 9, 2011, Mr. Steve Ecklund,
Investigator with the Division of Enforcement of the Federal Trade Commission,
informally agreed that the use of the generic term “flax” for textile products
manufactured from CRAiLAR® flax fibers and yarns was proper and consistent
the Textile Fiber Products Identification Act (“TFPIA”), 15 USC §§70-70k. A copy
of this e-mail correspondence is attached for your reference as Exhibit A.

Use of the Generic Term “Flax” For
Textile Products Manufactured From
CRAiLAR® Flax Fibers and Yarns
May 10, 2012
Page 2 of 7
BACKGROUND
I.

Naturally Advanced Technologies US Inc.

NAT develops renewable and environmentally sustainable biomass
resources from flax, hemp and other bast fibers. The company, through its
wholly owned subsidiary, CRAiLAR® Fiber Technologies Inc., has developed
proprietary technologies for production of bast fibers, cellulose pulp, and their
resulting by-products in collaboration with Canada's National Research Council.
CRAiLAR® technology offers cost-effective and environmentally sustainable
processing and production of natural, bast fibers resulting in increased
performance characteristics for use in textile, industrial, energy, medical and
composite material applications.
II.

Traditional Flax Fiber Processing

Flax fibers are collected from the phloem (the “inner bark” or the skin) or
bast surrounding the stem of the flax plant. In the photograph below, bundles of
these fibers are represented by the green ovals, which are grouped together in the
bast:

Use of the Generic Term “Flax” For
Textile Products Manufactured From
CRAiLAR® Flax Fibers and Yarns
May 10, 2012
Page 3 of 7
Traditionally, the bundles of flax fibers used in the production of linen
(represented by the green ovals above) are extracted from the bast using the
following procedures1:


Retting – Retting is the process of rotting away the inner stalk of the
flax plant, leaving the outer fibers in the bast intact. After this process,
the straw supported by long, coarse groupings of fiber bundles
(represented by the red hexagons in the photograph above) remains.



Breaking – Next, the straw is broken into short segments in order to
help ease the removal of the outer straw from the stalk.



Scutching – The scutching process is the first attempt to remove the
straw and woody part of the stem from the flax fibers. Scutching can
be done either by hand or by machine in a scutching mill. Hand
scutching is done with a wooden scutching knife and a small iron
scraper. Machine scutching, on the other hand, usually involves
crushing the stalks between two metal rollers, which break the stalks so
that parts of the stalk can be separated from the fibers. The fiber is
extracted from aligned straw by beaters and combs in the scutching
machine which removes shive and fiber which is not long enough for
spinning on the linen system (known as “tow’ fiber).



Heckling – In this process, the fiber is pulled through various
different sized heckling combs or “heckles.” A heckle is a bed of “nails”
– sharp, long-tapered, tempered, polished steel pins driven into
wooden blocks at regular spacing. The first few rows of heckles will
remove the straw as the fiber is pulled through, while the last rows will
split and polish the fibers.

The end result of this traditional flax extraction process is flax fibers that
are relatively long (ranging from about 25 to 150 cm in length) and average 12-16
micrometers in diameter. These fibers have a relatively coarse texture due to
their irregular polygonal shapes and the fact that the fiber bundles remain bound
together with lignin. When spun into yarns for textile manufacture, flax fibers
extracted using this process yield fabrics with the characteristic properties of
linen easily recognized by the public: linen fabric is smooth yet contains slubs
(due to the length and lack of uniformity of the fibers), wrinkles easily, requires
significant ironing, and typically must be air-dried after washing or dry-cleaned.

1

See, generally, http://en.wikipedia.org/wiki/Flax.

Use of the Generic Term “Flax” For
Textile Products Manufactured From
CRAiLAR® Flax Fibers and Yarns
May 10, 2012
Page 4 of 7
III.

CRAiLAR® Flax Fiber Processing

The CRAiLAR® process uses a decidedly different approach to removing
flax fibers from the flax plant, resulting in an end product with distinct and
different characteristics than traditional linen. Rather than extracting flax fibers
from the bast primarily through the physical methods described above (i.e.,
through breaking, scutching and heckling following a retting process), the
CRAiLAR® process involves enzymatic treatment of the bast to obtain a much
finer, shorter-length fiber with performance characteristics more akin to cotton
than linen.
Specifically, the CRAiLAR® process extracts flax fibers from decorticated
flax bast skin by pre-treating the decorticated bast skin with an aqueous solution
containing di-sodium citrate, tri-sodium citrate or a mixture thereof having a pH
of from about 6-13 at temperature of about 90°C or less. The recovered fiber is
subsequently treated with an enzyme. By removing the lignin binding the fibers
together, this process permits the extraction of individual flax fibers (represented
by the light-blue dots in the photograph below), rather than the bundles of such
fibers that are the product of the traditional linen-making process described
above.

Use of the Generic Term “Flax” For
Textile Products Manufactured From
CRAiLAR® Flax Fibers and Yarns
May 10, 2012
Page 5 of 7
Importantly, the chemical structure of the flax plant is not altered through
the CRAiLAR® process, and these flax fibers are not “regenerated fibers” as that
term is technically defined.2 The CRAiLAR® process, in other words, does not
involve a chemical transformation of natural organic polymers (such as that
involved in the manufacture of rayon), but rather a physical transformation of the
flax plant – specifically, a physical separation of the individual flax fibers in the
plant to a degree unattainable through traditional means.
DISCUSSION
I.

Textile Fiber Products Identification Act Requirements

The Textile Fiber Products Identification Act (“TFPIA”), 15 USC §§70-70k,
requires marketers to attach a label to each covered textile product disclosing: (1)
the generic names and percentages by weight of the constituent fibers in the
product; (2) the name under which the manufacturer or other responsible
company does business or, in lieu thereof, the registered identification number
(“RN number”) of such company; and (3) the name of the country where the
product was processed or manufactured.
The TFPIA regulations at 16 CFR §303.6(a) provide that “[e]xcept where
another name is permitted under the Act and regulations, the respective generic
names of all fibers present in the amount of 5 per centum or more of the total
fiber weight of the textile fiber product shall be used when naming fibers in the
required information; as for example: ‘cotton,’ ‘rayon,’ ‘silk,’ ‘linen,’ ‘nylon,’ etc.”
Moreover, while 16 CFR §303.7 establishes generic names for certain
manufactured fibers, and recognizes as acceptable the generic names for
manufactured fibers, together with their respective definitions, set forth in
International Organization for Standardization ISO 2076: 1999(E), “Textiles—
Man-made fibers—Generic names,” there is no similar regulatory list or reference
of acceptable natural fibers under the TFPIA.
II.

CRAiLAR® Flax Fibers Are Not Accurately Described
By The Generic Term “Linen”

As noted earlier, the performance characteristics of flax fibers extracted
using the CRAiLAR® process are different than those of flax fibers extracted with
2 “A regenerated fiber is one formed when a natural polymer, or its chemical derivative, is dissolved
and extruded as a continuous filament, and the chemical nature of the natural polymer is either
retained or regenerated after the fiber formation process.” Kirk-Othmer Encyclopedia of Chemical
Technology, Volume 10, Fourth Edition (1994), p. 696.

Use of the Generic Term “Flax” For
Textile Products Manufactured From
CRAiLAR® Flax Fibers and Yarns
May 10, 2012
Page 6 of 7
traditional methods and used in the manufacture of linen. CRAiLAR® flax fibers
have the look and feel of cotton. Unlike linen, due to the finer, shorter-length
fibers obtainable from the CRAiLAR® process, textile products manufactured
from CRAiLAR® flax fibers are soft, and wear and wash like cotton3 – in other
words, CRAiLAR® flax fabrics do not need significant ironing and can be washed
and dried with other regular laundry.
Thus, we believe that requiring textiles and textile products manufactured
from CRAiLAR® flax to be labeled as “linen” under the TFPIA would be
misleading and deceptive to consumers. As recognized by consumers in the
marketplace, linen products are smooth but wrinkle easily and require significant
ironing; moreover, linen products must typically be air-dried after washing or
dry-cleaned. Textile products manufactured from CRAiLAR® flax do not share
these performance characteristics, and thus it would be inaccurate to label such
products as “linen”; indeed, to do so would surely constitute the very deceptive
and unfair business practices that the FTC is charged to prevent.
III.

CRAiLAR® Flax Fibers Are Accurately Described
By The Generic Term “Flax”

As explained above, while the performance characteristics of flax fibers
extracted using the CRAiLAR® process are different than those of flax fibers used
in the manufacture of linen, the chemical composition of CRAiLAR® flax fibers
remains readily identifiable as that of flax. The CRAiLAR® manufacturing
process does not involve a chemical change to the underlying flax fibers, but
rather a physical change to the fiber groupings in the bast permitting further
separation of the individual fibers to a degree not achievable through traditional
flax manufacturing methods. CRAiLAR® flax fiber manufacturing, in other
words, does not result in chemically “regenerated fibers,” and does not involve a
chemical transformation of natural organic polymers.
Thus, CRAiLAR® flax fibers are not “manufactured fibers” under the
TFPIA, and none of the generic names set forth in 16 CFR §303.7 or ISO 2076:
1999(E) accurately describe them. In contrast, the generic term “flax” accurately
and completely describes the fibers manufactured using the CRAiLAR® process.
International Organization for Standardization ISO 6938: 1984, “Textiles—
Natural fibers—Generic names and Definitions,” defines the term “natural fibers”
as “fibers which occur in nature; they can be categorized according to their origin
3 In fact, CRAiLAR® flax’s performance attributes exceed those of cotton. CRAiLAR® flax fiber
shrinks less than cotton, absorbs moisture better (wicking), and has increased dye uptake, which
means it requires fewer chemicals to achieve the same depth of color as cotton.

Use of the Generic Term “Flax” For
Textile Products Manufactured From
CRAiLAR® Flax Fibers and Yarns
May 10, 2012
Page 7 of 7
into animal, vegetable and mineral fibers.” According to §3.2.2.6 of this
standard, the fiber name “flax” is recognized as a standard name for certain bast
fibers – specifically, “[f]iber from the stems of flax Linum usitatissimum.”
CRAiLAR® flax fibers are fibers from the flax plant (Linum usitatissimum) that
have been physically isolated – but not chemically regenerated – using an
enzymatic process. Thus, they are properly and accurately described as “flax”
under the accepted meaning of this generic term.
IV.

CONCLUSION

CRAiLAR® flax fibers are “fibers from the stems of flax (Linum
usitatissimum).” They are fibers from the flax plant that have been physically
isolated and refined to a greater degree than previously possible. While there has
been no chemical restructuring of the original flax fibers, the fine and short fiber
resulting from CRAiLAR® process yields a product with performance and
handling characteristics distinctly different than traditional linen products – so
much so that requiring textile products manufactured from CRAiLAR® flax fibers
to be labeled as “linen” would be misleading and confusing to consumers of these
products in the marketplace. Therefore, we believe that the generic term “flax” is
the most accurate description for textile products manufactured from CRAiLAR®
flax fibers and yarns under the TFPIA. We ask that the Commission staff kindly
confirm this conclusion.
If the Commission staff disagrees with this conclusion, we respectfully
request the opportunity to meet with the official(s) responsible for making this
decision before a final determination is rendered.
Please do not hesitate to contact Brett Harris at (845) 255-1850 if you have
any questions or require additional information.

Sincerely,

Brett Ian Harris

EXHIBIT A

Brett Harris
Subject:

RE: Response to Your Request for More Information Regarding "Flax Fiber"

From: Ecklund, Stephen C. [mailto:SECKLUND@ftc.gov]
Sent: Wednesday, November 09, 2011 5:09 AM
To: Mike Heilbronner
Subject: RE: Response to Your Request for More Information Regarding "Flax Fiber"
Dear Mr. Heilbronner:
Thank you for the information about Crailer® flax fiber.
Based on the information you provided, it appears that the term “flax fiber” is an appropriate designation for NAT’s
Crailer® flax fiber. It is also staff’s opinion that it would be inappropriate to refer to Crailar® flax fiber as “linen.”
As always, the views expressed in this email represent my views only and are not considered binding on the
Commission. I cannot issue a ruling on this because I am not a Judge in Court and I am not the Commission in an official
law enforcement action. The company remains responsible for compliance with the law regardless of anything stated or
not stated by Commission staff. My statements and views are not legal advice. The company may wish to discuss the
matter with a private law firm familiar with FTC labeling laws. Commission staff reserves the right to review this matter at
a later time.
Sincerely,

Steve Ecklund, Investigator
Division of Enforcement
Federal Trade Commission
600 Pennsylvania Ave., NW
Washington, DC 20580
Phone: 202-326-2841
Fax: 202-326-2558
Email: secklund@ftc.gov
From: Mike Heilbronner [mailto:mheilbronner@idealegal.com]
Sent: Monday, October 03, 2011 7:44 PM
To: Ecklund, Stephen C.
Subject: Response to Your Request for More Information Regarding "Flax Fiber"

Dear Mr. Ecklund:
This email is in response to your request of September 26 for additional information regarding the use of “flax fiber” on
content labels for NAT’s Crailar flax fiber.
In your email of September 26, you asked for two types of additional information, namely, (1) information relating to
flax as a natural fiber and the use of “flax fiber” as the appropriate generic designation; and (2) information about the
differences between NAT’s Crailar flax fiber and linen. Independently, you alerted me to the FTC’s rulings and guidance
regarding improper labeling of “bamboo” fiber.
The numbered items below respond in turn to these three subjects.
1.
Information Relating to Flax as a Natural Fiber and the Use of “Flax Fiber” as the Appropriate Generic
Designation
1

As demonstrated in my email of September 22, 2011, the ISO has determined that flax is a natural fiber with the generic
name, “flax fiber.” While the FTC is not bound by the ISO’s determination, the ISO is obviously a trusted, independent
source.
More importantly, the U.S. government itself uses “flax fiber” as the generic name for fibers derived from flax. By way of
example, Chapter 62 of the 2010 Harmonized Tariff Schedule of the United States uses the phrase “flax fibers” to
distinguish five separate tariff rates. See http://www.usitc.gov/publications/docs/tata/hts/bychapter/1000c62.pdf.
Independently Heading 5303 of Section 53 of the U.S. 2010 Harmonized Tariff Schedule clearly acknowledges that flax is
a “textile based fiber.” See http://www.usitc.gov/publications/docs/tata/hts/bychapter/1000C53.pdf
The USDA Agricultural Research Service (“USDA‐ARS”) also uses “flax fiber” as the generic name for flax. Most notably, in
2004, the USDA‐ARS established a flax fiber research facility in Clemson, SC that was named the “USDA Flax Fiber Pilot
Plant.” Reporting on its own research at the “USDA Flax Fiber Pilot Plant” in 2005, the USDA‐ARS published an article in
its monthly magazine, Agricultural Research, that was called, “Flax Fiber Offers Cotton Cool Comfort.” A copy of the
USDA‐ARS’s 2005 Agricultural Research article can be found here:
http://www.ars.usda.gov/is/AR/archive/nov05/fiber1105.htm. Notably, in addition to the title of the article, the article
is replete with other references to “flax fibers.”
The 2005 Agricultural Research article is about the USDA‐ARS’s research into the use of flax fibers for flax‐based denim
fabrics that could compete with cotton‐based blends. As detailed in discussion below under heading number 2, this goal
is exactly what NAT has achieved with Crailar.
Next, a 2008 article in the journal, BioResources (published by N.C. State University) discussed the USDA‐ARS’s flax fiber
research at the “USDA Flax Fiber Pilot Plant” and specifically distinguished the USDA‐ARS’s goals for flax from the typical
use of flax for linen, stating:
The objective of this work was, therefore, not long line fiber for traditional linen, but instead short staple fibers
for blending with cotton and other fibers. The requirements to maintain long fiber length and other restrictions
necessary for traditional linen could be avoided, and new methods could be explored to produce a total fiber
product from diverse sources of flax.
A copy of the 2008 BioResources article can be found here:
http://www.ncsu.edu/bioresources/BioRes_03/BioRes_03_1_0155_Foulk_AD_PectinolyticEnzymes_Retting.pdf. The
flax fiber research conducted by the USDA‐ARS at the USDA Flax Fiber Pilot Plant was also discussed in a research article
called “Pilot plant for processing flax fiber” that was published in the journal, International Crops and Products. A copy of
that article can be found here: http://ddr.nal.usda.gov/bitstream/10113/4310/1/IND43702115.pdf.
As detailed below in section 2, the “short staple fibers” contemplated in the 2008 BioResources article (as distinguished
from the long fibers used for linen) are precisely the raw materials NAT uses for its Crailar flax fiber.
Notably, in January 2011, NAT and Hanesbrands (the well‐known global apparel leader) announced a joint research
partnership with the USDA‐ARS to cultivate and evaluate the viability of various flax strains for producing Crailar. The
project is being carried out in South Carolina and has an initial term of one year, with a renewal option of two additional
years. You can read about the joint research of NAT, Hanesbrands, and the USDA‐ARS here:
http://www.textileworld.com/Articles/2011/January/NAT_Hanesbrands_USDA_Team_To_Conduct_Flax_Growing_Trials
.html
The U.S. government’s regular use and reference to “flax fiber” as the generic name for a natural fiber is obviously
compelling, but perhaps the most interesting evidence that “flax fiber” is the generic name for a natural fiber comes
from the website for the United Nations’ “International Year of Natural Fibers”:
http://www.naturalfibres2009.org/en/index.html. As shown by that website, the United Nations proactively proposed
and developed the “International Year of Natural Fibers,” which was held in 2009. More information about the history of
2

the “International Year of Natural Fibers” including its origins with the United Nations is discussed here:
http://www.naturalfibres2009.org/en/iynf/background.html.
The website for the “International Year of Natural Fibers” has a dedicated page for flax as a natural fiber, and “flax fiber”
appears several times on the page to generically designate the fiber from flax. Here is that dedicated flax page:
http://www.naturalfibres2009.org/en/fibres/flax.html. As you can see from that page, not all flax textiles are linen. On
the contrary, the flax page notes that some flax is used for linen (specifically, “fine and long flax fibres”), but that page
also notes that “shorter flax fibers” are used for other textiles, including consumer products like towels, tents, canvas,
furniture fabric, and sails.
Again, NAT’s Crailar flax fiber is comprised of these “shorter flax fibres” that are not used for linen. This important
distinction is one of the subjects of the next section.

2.

Information about the Differences Between NAT’s Crailar Flax Fiber and Linen

There are two ways to discuss the differences between NAT’s Crailar flax fiber and linen.
First, there are critical technical distinctions between the two materials. Rather than explain these differences in this
email, NAT has prepared the attached document, “NAT – Explanation of Linen v. Crailar Flax Fiber,” which consists of (i)
a text discussion of pertinent technical distinctions; and (ii) a chart with a point‐by‐point comparison of some of the
distinctions. Among others, the discussion and chart explain that NAT’s Crailar flax fiber is comprised of short bast flax
fibers washed in a natural, enzymatic bath. The basic properties of the original short flax fibers are not altered, and they
are readily distinct from linen derived from long flax fibers.
The second way to discuss the differences between NAT’s Crailar flax fiber and linen are the performance, market‐based
differences. Here, the focus is on the differences consumers experience with the two materials. If you’ve ever worn a
linen garment, then you will readily understand these differences.
Linen has a relatively coarse texture. Linen wrinkles easily and requires significant ironing. Linen typically must be
carefully washed and then air‐dried, or it must be dry‐cleaned.
In stark contrast and in the simplest terms, NAT’s Crailar flax fiber has the look, feel, and performance attributes of
cotton. NAT’s Crailar is soft and naturally white, and it wears and washes like cotton. In other words, it is comfortable,
does not need significant ironing, and can be washed and dried with other regular laundry.
In short, calling Crailar flax fiber “linen” would mislead and deceive consumers in the same way that labeling a linen
garment as “cotton” would mislead and deceive consumers. By way of example, imagine that you bought a typical
undershirt labeled “cotton” but, when you put on the undershirt, it had the look, feel, and performance traits of linen.
Your expectation of a soft, user‐friendly garment would differ greatly from the uncomfortable and user‐unfriendly
reality. Interestingly, Crailar’s performance attributes actually exceed those of cotton. Crailar flax fiber shrinks less than
cotton, absorbs moisture better (wicking), and has increased dye uptake, which means it more efficiently achieves the
same depth of color as cotton.
The cotton‐like performance attributes of Crailar flax fiber have not gone unnoticed in the marketplace, and NAT has
significant purchase, development, and production agreements for Crailar flax fiber with some of the world’s largest and
most well known apparel and textile manufacturers.
By way of example, the online magazine Smart Planet (owned by CBS Interactive), recently wrote about NAT’s
agreement with Levi Strauss & Co. (owner of the Levi’s and Dockers brands) for the development of Crailar‐based
denim. Notably, the title of the article is, “Levi’s eyes flax fiber for sustainable denim” (i.e., the title uses the generic “flax
3

fiber” to designate Crailar). A copy of the Smart Planet article can be found here:
http://www.smartplanet.com/blog/smart‐takes/levis‐eyes‐flax‐fiber‐for‐sustainable‐denim/15522
Likewise, earlier this year, Hanesbrands and NAT signed a 10‐year purchasing agreement for NAT’s flax fiber. This
agreement is different than the NAT/Hanes/USDA‐ARS research agreement discussed above in section 1. This
purchasing deal was widely reported throughout the apparel industry. Here are just two examples: “Hanes Replaces
Costly Cotton” http://www.zacks.com/stock/news/51218/Hanes+Replaces+Costly+Cotton; and “Flax Fiber Goes
Mainstream through Major American Clothing Brand” http://www.wendmag.com/greenery/2011/03/flax‐fiber‐goes‐
mainstream‐through‐major‐american‐clothing‐brand/. Please note the use of “flax fiber” in the title of the second
article.
Most recently, NAT and Georgia‐Pacific Consumer Products entered into a 3‐year Crailar flax fiber supply agreement.
This agreement and a previous agreement with Georgia‐Pacific were also widely reported. Finally, NAT has also signed
agreements involving Crailar flax fiber with several other global companies, including, Cintas Corporation, Ashland Inc.,
Westex Inc., Carhartt, and Hong Kong‐based, Brilliant Global LTD. Details of these agreements can be found here:
http://www.naturallyadvanced.com/s/PressReleases.asp
3.
Whether Designating NAT’s Crailar as “Flax Fiber” Would Raise Issues Similar to the Problems with “Bamboo”
Labeling
I have reviewed the FTC’s ruling and guidance about the improper use of “bamboo” on labels for Rayon. That situation
involved Rayon produced from reconstituted, pulped bamboo. As I am sure you are aware, Rayon can be produced from
a variety of raw materials, but the comprehensive chemical processing of the raw materials leaves no trace of them in
the final Rayon product. When Rayon is produced from bamboo, the basic properties of bamboo are destroyed, and the
resulting fiber bears no resemblance to bamboo. For that reason, the “bamboo” label for Rayon was misleading.
NAT’s situation with Crailar has nothing in common with the reasons the “bamboo” label for Rayon was improper. The
final Crailar product is fundamentally no different than the source raw materials, namely, short flax fiber raw materials.
In short, Crailar is made from flax fiber, and Crailar is flax fiber that has been washed in a natural enzymatic bath.

In conclusion, the FTC’s rules require only that NAT use the generic name for a natural fibers. The FTC does not maintain
an exclusive list of generic names for natural fibers. NAT’s Crailar fibers are nothing more than processed short flax
fibers, and flax is obviously a natural crop. Accordingly, NAT is unaware of any FTC rule or regulation indicating that
NAT’s Crailar product should be called anything other than “flax fiber,” and calling it “linen” would mislead and deceive
consumers.
I would be happy to discuss this with you and/or other FTC personnel.
I realize this is a long email, and I greatly appreciate your consideration.
Mike Heilbronner
IdeaLegal, P.C.
www.IdeaLegal.com
MHeilbronner@IdeaLegal.com
Phone: (503) 449‐9084
Fax: (503) 914‐0301
1631 NE Broadway, No. 443
Portland, OR 97232

4

*** This email and any files transmitted with it are only for the intended recipient(s) and may be confidential and legally
privileged. If you have received this email in error, please notify IdeaLegal, P.C. immediately and delete this e‐mail
without disclosing, copying, distributing or taking any action in reliance on the contents. ***

5

https://www.fedex.com/shipping/html/en/PrintIFrame.html

After printing this label:
1. Use the 'Print' button on this page to print your label to your laser or inkjet printer.
2. Fold the printed page along the horizontal line.
3. Place label in shipping pouch and affix it to your shipment so that the barcode portion of the label can be read and scanned.
Warning: Use only the printed original label for shipping. Using a photocopy of this label for shipping purposes is fraudulent and could result in
additional billing charges, along with the cancellation of your FedEx account number.
Use of this system constitutes your agreement to the service conditions in the current FedEx Service Guide, available on fedex.com.FedEx will not be responsible
for any claim in excess of $100 per package, whether the result of loss, damage, delay, non-delivery,misdelivery,or misinformation, unless you declare a higher
value, pay an additional charge, document your actual loss and file a timely claim.Limitations found in the current FedEx Service Guide apply. Your right to recover
from FedEx for any loss, including intrinsic value of the package, loss of sales, income interest, profit, attorney's fees, costs, and other forms of damage whether
direct, incidental,consequential, or special is limited to the greater of $100 or the authorized declared value. Recovery cannot exceed actual documented
loss.Maximum for items of extraordinary value is $500, e.g. jewelry, precious metals, negotiable instruments and other items listed in our ServiceGuide. Written
claims must be filed within strict time limits, see current FedEx Service Guide.

1 of 1

5/10/2012 10:59 AM

